 CONGRESSIONAL RESPONSE
        REPORT

The Social Security Administration’s
 Relocation of the District Office in
        Jackson, Tennessee
             A-13-04-24083




             MARCH 2004
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                            SOCIAL SECURITY


                                    March 26, 2004

The Honorable Harold Ford, Jr.
House of Representatives
Washington, D.C. 20515

Dear Mr. Ford:

On January 8, 2004, we notified your office that the Office of the Inspector General
received a copy of the December 12, 2003 letter the President of the Jackson-Madison
County Branch of the National Association for the Advancement of Colored People sent
to you. At that time, we advised you that we planned to collect and review pertinent
information related to the Jackson, Tennessee, District Office’s relocation and that we
would inform you of our findings.

We are providing you with our report detailing the relocation of the office. My office is
committed to eliminating fraud, waste, and abuse in the Social Security Administration’s
operations and programs. We have provided copies of the enclosed report to
Senators Bill Frist and Lamar Alexander and Representative John Tanner.

If you have any questions concerning this matter, please call me or have your staff
contact Douglas Cunningham, Assistant Inspector General for Congressional and
Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,


                                            S
                                                Patrick P. O’Carroll, Jr.
                                                Acting Inspector General

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
President, Jackson-Madison County Branch
 National Association for the Advancement of Colored People




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                                                                       Background
OBJECTIVE

Our objective was to provide information on the reasons for the relocation of the
Jackson, Tennessee (TN) field office. Our review focused on whether the Social
Security Administration (SSA) followed its relocation policies and procedures. We did
not determine whether the General Services Administration (GSA) complied with
applicable laws, regulations, Executive Orders or its own policies and procedures.

BACKGROUND

The President of the Jackson-Madison County Branch of the National Association for
the Advancement of Colored People (NAACP), sent letters dated December 12, 2003 to
Senators Bill Frist and Lamar Alexander and Representatives John Tanner and Harold
Ford, Jr., expressing concern about the relocation of SSA’s field office in Jackson, TN.
Copies of this correspondence were also sent to the Office of the Inspector General.
This letter stated that public access to basic benefits had been severely impeded by
moving the SSA Jackson, TN field office from its downtown location to North Jackson.
Further, the letter requested that the field office be returned to its former location.

Many SSA customers are aged, disabled, or both. SSA has established field offices to
serve as its main point of contact for addressing customers’ needs. The Agency has a
network of 1,337 field offices located in cities and rural communities across the nation.
These offices provide individuals the ability to apply for a Social Security number or
benefits, obtain information about their earnings records, or conduct other program-
related business.

Federal agencies conducting the procurement of real property must comply with the
requirements of all applicable laws, including the Rural Development Act of 1972,1
regulations, and Executive Orders.2,3 Each agency is responsible for identifying its
geographic service area4 and the delineated area5 within which it wishes to locate
specific activities.6 In addition to complying with applicable laws, regulations and
Executive Orders, selection of an office location should be consistent with the agency’s
mission and program requirements.7

1
  Public Law No. 92-419
2
  41 C.F.R § 102-83.40
3
  Applicable Executive Orders (EO) include EO 12072, Federal Space Management, August 16, 1978;
and EO 13006, Locating Federal Facilities on Historic Properties in Our Nation’s Central Cities,
May 21, 1996.
4
  Program Operations Manual System (POMS) section GN 00904.010 notes each field office has a
defined geographical area and is responsible for providing service to any individual whose mailing
address falls within this service area.
5
  Delineated area defines the boundaries of the area in which the space should be located.
6
  41 C.F.R. § 102-83.10
7
  41 C.F.R. § 102-83.10, 41 C.F.R § 102-83.40


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)                               1
GSA is the “landlord” for the Federal government and serves as the sole agent in
acquiring space used by Federal agencies, including SSA.8 Among the many functions
GSA performs are: leasing space to Federal customer agencies; repairing, altering and
renovating existing facilities; and collecting rents from its Federal tenants. SSA works
with GSA to secure space for its operations.




8
 Administrative Instruction Manual System, Manual Material Resources, Chapter 01 Realty and Space
Management, Instruction No. 3, Section 01.03.02


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)                              2
                                                           Results of Review
Our review found SSA initiated the move from the Ed Jones Federal Building in
downtown Jackson, TN because it needed additional space for interviewing
workstations, interactive video teletraining, and future expansion. Also, we determined
that SSA followed applicable policies and procedures for the relocation of its
Jackson, TN field office. We did not determine whether GSA complied with applicable
laws, regulations, Executive Orders or its own policies and procedures.

Ed Jones Federal Building
The Ed Jones Federal Building was built in 1932 as a Federal Courthouse. It contains a
total of four floors—a basement level and three floors above ground. GSA staff advised
us major renovations made to the building were limited to mechanical upgrades,
security upgrades and upgrades/repairs to the windows. Lesser renovations were
made to individual tenant occupied spaces.

The basement of the Ed Jones building contained numerous offices co-located with the
building’s boiler and mechanical rooms. Disabled individuals in wheelchairs were
required to enter from the rear basement level entrance and traverse the length of the
building, while negotiating several corridors to gain access to the elevator. The elevator
accessed the first floor where SSA’s field office was located.

Additionally, SSA staff stated the Federal building had a security guard, metal detectors,
and cameras for the protection of all employees and its customers. Further, the field
office manager had a monitor from which activity in the waiting room could be viewed.
However, the security guard did not have access to a monitor.9

SSA Requests Additional Space
In a June 8, 1999 memorandum,10 the former District Office Manager initially requested
the Jackson, TN District Office move from the Ed Jones Federal Building. The Manager
cited the Ed Jones Federal Building lacked adequate space for additional interviewing
workstations,11 and interactive video teletraining. Further, the memorandum indicated
all contiguous space in the Ed Jones Federal Building was occupied, which negated
further expansion of office space. 12

9
  The guard was responsible for ensuring security for the entire building. Since the position was not
dedicated solely to SSA, the guard would not have been required to monitor activity in SSA’s office.
10
   SSA Memorandum, Relocation of Space, June 8, 1999
11
   Additional interviewing stations were needed for “front-end interviewing” (FEI). FEI allows SSA staff to
conduct interviews in a more secure environment. Interviewers are separated from individuals by a
window and each FEI interviewing area has an alarm button that is available for use if there is any
disturbance.
12
   In a memorandum dated November 23, 1999, SSA’s Assistant Regional Commissioner for
Management and Operations Support notified GSA that SSA-occupied 6,178 square feet of space at
109 S. Highland Avenue, Jackson, TN. However, the Agency required a minimum of 9,325 square feet of
space for the office.


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)                                    3
On January 20, 2000, GSA responded to SSA’s follow-up space request.13 GSA
offered SSA space in the basement of the Ed Jones Federal Building. In addition, GSA
requested SSA consider two issues: (1) rent would increase in a leased space and
(2) the Federal building offered a level of security not found in leased space. SSA
declined the offer stating the additional space in the basement of the Ed Jones Federal
Building was not suitable to its needs as SSA personnel would be housed on two
separate floors.14 The Agency advised GSA it needed open, contiguous space for its
employee’s modular workstations.

Space Acquisition Process
In response to SSA’s request, GSA initiated its “space acquisition process” to acquire
space to relocate the Jackson, TN field office. In October 2000, GSA advised the
Mayor of Jackson, TN of the relocation project. The Mayor was informed that GSA
would advertise in the local media for 9,325 to 9,600 useable square feet of contiguous
office and related-use space.15 GSA requested the Mayor’s assistance in identifying the
boundaries of the Central Business District (CBD)16 and any historic districts or
properties.

GSA’s Site Selection Guide provides, “When operationally appropriate and
economically prudent, Executive Order 13006 requires that Federal agencies give first
consideration to properties within historic districts when selecting locations for their
facilities...”17 In its letter to the Mayor, GSA advised that in acquiring space for the SSA
field office, it shall give first consideration to property located in historic districts within
the CBD. If no historic properties are available, then other properties in the CBD would
be considered. Upon failing to locate suitable property in the CBD, GSA would then
consider properties outside the downtown area. According to GSA staff, the Mayor
advised GSA he was interested in having the SSA field office in the downtown area of
Jackson, TN.

GSA documents indicate the Jackson Planning Department assisted in clarifying
boundaries within the CBD and gave advice on historic districts within the area.
Further, GSA documents indicate the Jackson Planning Department modified the
boundaries in the CBD. A revised CBD was created and GSA requested the Jackson
Planning Department forward a map with the revised CBD.


13
   SSA Memorandum dated November 23, 1999.
14
   SSA’s Space Allocation Standard for Field Offices guidelines direct that first consideration be given to
Federally-owned or Federally-controlled space that can meet specific criteria. The Standards further
indicate first-floor contiguous space is considered most efficient for all field offices.
15
   GSA letter, Project No. 0TN0009 Social Security Administration Jackson Tennessee, October 27, 2000
16
   41 C.F.R. § 102-83.85 defines a Central Business Area (CBA) as “…the centralized community
business area and adjacent areas of similar character, including other specific areas that may be
recommended by local officials in accordance with EO 12072. The central business areas are designated
by local government and not by Federal agencies.”
17
   United States General Services Administration Public Building Service, The Site Selection Guide, p.13


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)                                   4
In March 2001, GSA advertised18 for lease space in Jackson, TN. The advertisement
noted “the U. S. Government seeks to lease approximately 11,400 rentable square feet
of office and related use space.”19 The advertisement indicated the property must be
located in the CBD or within specific geographical boundaries.20 First consideration
would be given to the CBD.

Further, on April 27, 2001 GSA conducted a market survey21 in Jackson, TN. Prior to
the market survey, a site in the CBD was rejected because it called for operations on
two floors. The market survey was conducted to review 13 proposed sites, three of
which were in the CBD. Based on GSA’s policy, 7 of the 13 proposed sites—including
the 3 sites in the CBD—were rejected leaving 6 remaining sites for consideration.22
One of the three sites in the CBD was rejected due to the proximity of a railroad and
faced an elevated highway bypass. The second site was rejected due to an industrial
type setting with a trucking distribution warehouse and an oil distribution center. The
last site was rejected for the same reasons as the second site and because it also faced
the prison ward of a county criminal justice center.

GSA, with the concurrence of SSA, decided to solicit offers from the six remaining sites
and one additional site which was a late entrant located in the CBD. GSA determined
that having only one site in the CBD did not constitute adequate competition.23 On
September 17, 2001, Solicitations for Offers24 were sent to the five bidders representing
the seven sites. Offers were due on October 18, 2001.

Of the seven sites, GSA received offers from four bidders for five office relocation
sites.25 One of the four offers withdrew later in the process. On February 1, 2002, after
a period of negotiation, GSA received the “best and final offers” from the remaining

18
   U.S. Government Wants To Lease Space in Jackson, Tennessee, The Jackson Sun, March 25, 2001
19
   GSA advertised for additional square footage of office and related use space to allow for additional
growth by SSA.
20
   North: Ashport Road to Old Humboldt Road to Ashport Road: South: Old Medina Road to Campbell
Street: East: Forest Avenue: West: Hollywood Drive to Highway 412 to Country Club Lane to Pleasant
Plains to Pleasant Plains Road. These boundaries make up the delineated area.
21
   For this review, we defined a market survey as a site review conducted by GSA to determine if a
location considered for lease is suitable based on GSA’s and SSA’s criteria.
22
   The 7 sites were eliminated by GSA’s Solicitation for Offers guidelines 1.1 and 1.3. Guideline 1.1.B.
states “The design (including site planning, orientation, form and proportions) shall embody a corporate or
professional image. Industrial/warehouse buildings are not acceptable nor areas where they are located.
The Government reserves the right to reject space adjacent to or in the immediate vicinity of railroad
tracks.” Guideline 1.3.A.1. provides that “[s]pace shall be located in a commercial office district, with
professional surroundings with a prevalence of modern design and/or tasteful rehabilitation in modern
use.” Further, Guideline 1.3.A.3.a. provides that “[a]dequate eating facilities shall be located within
½ mile.”
23
   48 C.F.R § 570.203-2(a) states to “Solicit at least three sources to promote competition to the maximum
extent practicable…” Section 570.203-2(b) states “If you solicit only one source, document the file to
explain the lack of competition.”
24
   A Solicitation for Offer to lease space indicates the type, and the amount of space needed by the
conditions of the lease. The solicitation also gives detailed information on how to submit a proposal,
contact name and address, and the deadline by which it must be received by the GSA regional office.
25
   One bidder with 2 sites made an offer. Additionally, the lone CBD bidder never responded.


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)                                   5
three bidders. GSA reviewed the final bids and sent its recommendation to SSA’s
Atlanta Regional Office for concurrence. On February 14, 2002, GSA recommended
SSA accept the bid to construct a new building at 415 Cheyenne Drive in North
Jackson.

SSA did not hold a public forum to announce the relocation. SSA staff advised us that
its policy does not require a public forum.

415 Cheyenne Drive
On May 15, 2003, SSA field office personnel informed the local news media of the
planned relocation of the office from the Ed Jones Federal Building to 415 Cheyenne
Drive in North Jackson. In June 2003, the office moved approximately 6 miles to the
newly constructed building.

SSA officials stated that the new building is convenient for people throughout the
service area which includes 5 counties and a population of approximately
165,000 people. The office is accessible by interstate I-40 and other State routes. In
addition, an SSA official explained that it can take 45 minutes to 1 hour for an individual
to travel by bus from downtown Jackson, TN to the new office location.26 SSA
negotiated with the Jackson Transit Authority to have individuals dropped off in front of
the office. The field office requested bus schedules and information on reduced fares
for the aged and disabled to share with the public.

The building at 415 Cheyenne Drive is a one-floor structure solely occupied by the SSA
office. SSA staff advised the building has a much-improved parking situation.27 The
one-floor structure affords easier access to SSA’s offices for the aged and disabled. A
security guard is located at the building entrance. The security guard and field office
manager can view individuals in the waiting and interview areas. The new office space
provides for an interactive video teletraining room, cubicles for front-end interviewing,
and space for additional workstations for anticipated future hires.




26
   Jackson Transit Authority officials confirmed that it takes approximately 45 minutes and 1 bus transfer
to travel from the Social Security office’s prior location at the Ed Jones Federal Building to 415 Cheyenne
Drive. SSA and Transit Authority staff have had ongoing communications regarding facilitating the
pick-up and discharge of passengers at the new location.
27
   GSA staff noted that there are 61 spaces for public and employee use with approximately 30 of those
for the public. GSA’s Solicitation for Offers (SFO NO. 0TN0009, September 17, 2001) provided that to be
considered for an award, buildings to be constructed should meet the construction requirements of both
the Americans with Disability Act Accessibility Guidelines (Public Law No. 101-336; see 56 FR 35408,
July 26, 1991; 56 FR 45500, September 6, 1991; and 57 FR 1393, January 14, 1992) and the Uniform
Federal Accessibility Standards, 49 FR 31528, Section 4, Accessible Elements and Spaces: Scope and
Technical Requirements.


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)                                    6
                                        Appendices
Appendix A – Executive Orders

Appendix B – Scope and Methodology




SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)
                                                                                    Appendix A

Executive Orders
Executive Order 120721 requires that Central Business Areas (CBA)2 be given
preference when selecting locations for meeting Federal space needs. Specifically,
section 1-103 of the Executive Order provides, “…the process for meeting Federal
space needs in urban areas shall give first consideration to a centralized community
business area and adjacent areas of similar character, including other specific areas,
which may be recommended by local officials.” Further, Section 1-201 of the Executive
Order provides that “[t]he Administrator of General Services shall develop programs to
implement the policies of this Order through efficient acquisition and utilization of
Federally owned and leased space.” In meeting Federal space needs in urban areas,
the Administrator is to consider “…the convenience of the public served, and the
maintenance and improvement of safe and healthful working conditions for the
employees.”3

Executive Order 130064 reaffirmed the commitment set forth in Executive Order 12072
to strengthen our nation’s cities by encouraging the location of Federal facilities in cities.
The Order directs the Federal government to “…utilize and maintain, wherever
operationally appropriate and economically prudent, historic properties and districts,
especially those in our central business areas.” The Rural Development Act of 19725
also provides that Federal agencies give first consideration to historic properties within
historic districts.




1
  Executive Order 12072, Federal Space Management, August 16, 1978
2
  41 C.F.R. § 102-83.85 defines a Central Business Area (CBA) as “…the centralized community
business area and adjacent areas of similar character, including other specific areas that may be
recommended by local officials in accordance with EO 12072. The central business areas are designated
by local government and not by Federal agencies.”
3
  Executive Order 12072, Federal Space Management, Section 1-203, August 16, 1978
4
  Executive Order 13006, Locating Federal Facilities on Historic Properties in Our Nation’s Central Cities,
May 21, 1996
5
  Public Law No. 92-419


SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)
                                                                         Appendix B

Scope and Methodology
Our objective was to provide information on the reasons for the relocation of the
Jackson, Tennessee field office. Our review focused on whether the Social Security
Administration (SSA) followed its relocation policy and procedures. We did not
determine whether the General Services Administration (GSA) complied with applicable
laws, regulations, Executive Orders or its own policies and procedures.

To accomplish our objective, we:
    •   Reviewed Executive Orders 12072 and 13006, Rural Development Act of 1972,
        Titles 41 and 48 of the Code of Federal Regulations, and SSA’s Administration
        Instruction System procedures on Realty and Space Management.
    •   Interviewed SSA staff to determine the reasons for relocation of Jackson,
        Tennessee field office and obtained documentation supporting the relocation.
    •   Obtained supporting documentation from GSA staff for the location of sites and
        usable space in the Ed Jones Federal Building and Cheyenne Drive locations.

The SSA operating component reviewed was the Deputy Commissioner for Finance,
Assessment and Management/Office of Facilities Management/Office of Realty
Management. Our work was conducted in Baltimore, Maryland, from December 2003 to
February 2004. We conducted our review in accordance with the President’s Council
on Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Relocation of the District Office in Jackson, TN (A-13-04-24083)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General


                                          Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief Financial
Officers' Act of 1990, assess whether SSA’s financial statements fairly present the Agency’s
financial position, results of operations and cash flow. Performance audits review the economy,
efficiency and effectiveness of SSA’s programs. OA also conducts short-term management and
program evaluations focused on issues of concern to SSA, Congress and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize program
fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition, this
office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices nationwide hold
themselves to the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s public affairs,
media, and interagency activities, coordinates responses to Congressional requests for information,
and also communicates OIG’s planned and current activities and their results to the Commissioner
and Congress.

                                     Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing by
applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third parties,
and by SSA employees in the performance of their duties. OI also conducts joint investigations with
other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General on
various matters, including: 1) statutes, regulations, legislation, and policy directives governing the
administration of SSA’s programs; 2) investigative procedures and techniques; and 3) legal
implications and conclusions to be drawn from audit and investigative material produced by the OIG.
The Counsel’s office also administers the civil monetary penalty program.
